FLOYD HAMILTON BYRNS * IN THE
* COURT OF APPEALS

* OF MARYLAND

v.
* COA-PET-0092-2019
* CSA-REG-0341-2018
" (No. 13-K-87-016761, Circuit

STATE OF MARYLAND Court for Howard County)
ORDER
Upon consideration of the petition for a writ of certiorari to the Court of Special

Appeals and the answer e-filed thereto, in the above entitled case, it is

ORDERED, by the Court of Appeals of Maryland, that the petition be, and it is
hereby, denied as there has been no showing that review by certiorari is desirable and in the public

interest.

/s/ Mary Ellen Barbera
Chief Judge

DATE: June 21, 2019
